<html>
<title> - CALLING ON FREE AND FAIR PARLIAMENTARY ELECTIONS IN THE REPUBLIC OF AZERBAIJAN; URGING THE GOVERNMENT OF ALBANIA TO ENSURE THAT THE JULY 3, 2005 PARLIAMENTARY ELECTIONS ARE CONDUCTED IN ACCORDANCE WITH INTERNATIONAL STANDARDS FOR FREE AND FAIR ELECTIONS; AND RECOGNIZING THE 25TH ANNIVERSARY OF THE WORKERS' STRIKES IN POLAND THAT LED TO THE ESTABLISHMENT OF THE SOLIDARITY TRADE UNION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
              CALLING ON FREE AND FAIR PARLIAMENTARY ELECTIONS IN 
                THE REPUBLIC OF AZERBAIJAN; URGING THE GOVERNMENT 
                    OF ALBANIA TO ENSURE THAT THE JULY 3, 2005 
               PARLIAMENTARY ELECTIONS ARE CONDUCTED IN ACCORDANCE 
                 WITH INTERNATIONAL STANDARDS FOR FREE AND FAIR 
               ELECTIONS; AND RECOGNIZING THE 25TH ANNIVERSARY OF 
                 THE WORKERS' STRIKES IN POLAND THAT LED TO THE 
                    ESTABLISHMENT OF THE SOLIDARITY TRADE UNION 
=======================================================================


                                  MARKUP 

                                BEFORE THE 

                       SUBCOMMITTEE ON EUROPE AND 
                            EMERGING THREATS 

                                OF THE 

                           COMMITTEE ON 
                      INTERNATIONAL RELATIONS 
                      HOUSE OF REPRESENTATIVES 

                      ONE HUNDRED NINTH CONGRESS 

                             FIRST SESSION 

                                  ON 

                H. Res. 326, H. Con. Res. 155 and H. Res. 328 

                                 -------
          
                              JUNE 21, 2005 

                                 -------

                           Serial No. 109-46 

                                 -------

     Printed for the use of the Committee on International Relations 

                   Available via the World Wide Web: 
             http://www.hollse.gov/international_relations 
                                   -----
                       U.S. GOVERNlVIENT PRINTING OFFICE 
21-974PDF                        WASHINGTON : 2005 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
       DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                        Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]



</pre></body></html>
